               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




           Global Express Guaranteed

                       Audit Report




                                         September 27, 2011

Report Number FF-AR-11-016
                                                                  September 27, 2011

                                                        Global Express Guaranteed

                                                       Report Number FF-AR-11-016




IMPACT ON:
International mail internal control
procedures and customers who use the       WHAT THE OIG RECOMMENDED:
global express product.                    We recommended management
                                           validate GXG billings and conduct a
WHY THE OIG DID THE AUDIT:                 re-certification and accreditation of the
Our objective was to determine whether     GXG database.
control procedures over acceptance,
processing, tendering, delivering, and     WHAT MANAGEMENT SAID:
oversight of Global Express                Management agreed with both
Guaranteed® (GXG) mailings are in          recommendations and the recertification
place and operating effectively. This      and accreditation of the GXG database
audit was self-initiated to identify GXG   finding. Management disagreed with the
financial and operational risks.           basis for our audit and the finding
                                           related to GXG validation and scanning
WHAT THE OIG FOUND:                        procedures.
The U.S. Postal Service generally had
effective control procedures over          AUDITORS’ COMMENTS:
processing, tendering, and delivering      Regarding management’s disagreement
GXG mailings. However, control             with the basis of our audit, we informed
procedures over acceptance and             them of the audit objectives in our audit
oversight of GXG billings needed           fieldwork announcement letter. Further,
improvement. Specifically, GXG             during the audit, GXG management
program management did not properly        implemented new procedures to
validate FedEx® Corporation billings.      address their specific concerns
Consequently, the Postal Service paid      discussed at the onset of the audit.
FedEx about $314,000 without               Regarding management’s disagreement
adequate support. In addition,             with the GXG validation and scanning
management did not timely re-certify       procedures finding and monetary
and accredit the GXG database. As a        impact, the GXG Alliance Agreement
result, management cannot ensure the       states that the Postal Service will
GXG database is adequately protected       request that FedEx provide supporting
to prevent security threats and            documentation for the amount billed.
vulnerabilities that could negatively      GXG management did not request the
affect the Postal Service brand.           documentation.

                                           Link to review the entire report
September 27, 2011

MEMORANDUM FOR:            GISELLE E. VALERA
                           VICE PRESIDENT, GLOBAL BUSINESS

                           CHUCK L. McGANN
                           MANAGER, CORPORATE INFORMATION SECURITY




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Audit Report – Global Express Guaranteed
                           (Report Number FF-AR-11-016)

This report presents the results of our audit of Global Express Guaranteed®
(Project Number 11BD002FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Field Financial - East or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Paul E. Vogel
    Ellis A. Burgoyne
    Franca S. Davis
    Elizabeth A. Richardson
    Corporate Audit and Response Management
                                                 TABLE OF CONTENTS




Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

GXG Validation and Scanning Procedures ........................................................................ 1

Re-Certification and Accreditation of the GXG Database .................................................. 2

Recommendations .............................................................................................................. 3

Management’s Comments .................................................................................................. 3

Evaluation of Management’s Comments ............................................................................ 4

Appendix A: Additional Information..................................................................................... 6

    Background ..................................................................................................................... 6

    Objective, Scope, and Methodology ............................................................................... 6

    Prior Audit Coverage ....................................................................................................... 7

Appendix B: Monetary Impact ............................................................................................. 8

Appendix C: Management’s Comments ............................................................................. 9
Global Express Guaranteed                                                                             FF-AR-11-016



Introduction

This report presents the results of our audit of Global Express Guaranteed® (GXG) mail
procedures (Project Number 11BD002FF000). This audit addresses financial and
operational risks. Our objective was to determine whether control procedures over
acceptance, processing, tendering, delivering, and oversight of GXG mailings are in
place and operating effectively. This audit was self-initiated to identify GXG financial
and operational risks. See Appendix A for additional information about this audit.

GXG is the U.S. Postal Service’s premium international shipping option for
documents and merchandise. This service offers mailers guaranteed date-certain
delivery (1-3 days) to destinations in 190 countries. The Postal Service began using the
FedEx® Corporation to transport GXG mailings on July 1, 2004. On June 15, 2009, the
Postal Service renewed the GXG Alliance Agreement 1 through June 30, 2014. In fiscal
year (FY) 2010, the Postal Service’s GXG revenue and volume was approximately
              and 244,668 pieces, respectively.

Conclusion

The Postal Service generally had effective control procedures over processing,
tendering, and delivering GXG mailings. However, control procedures over acceptance
and oversight of GXG billings needed improvement. Specifically, GXG program
management did not properly validate FedEx billings for GXG deliveries. Consequently,
the Postal Service paid FedEx about             for delivering GXG mail without
adequate support. In addition, management did not timely re-certify and accredit the
GXG database. As a result, management cannot ensure the GXG database is
adequately protected to prevent security threats and vulnerabilities that could negatively
affect the Postal Service brand.

GXG Validation and Scanning Procedures

GXG program management personnel did not properly validate FedEx billings for GXG
deliveries. Specifically, we found 3,621 of 244,668 GXG mailings in FY 2010 2
                              where management did not obtain evidence that these
represented valid billings. For these mailings, Postal Service systems did not contain
evidence that personnel completed any of the scans required as the mailing moved
through the Postal Service network. 3 Alternatively, management did not obtain other
valid alternative supporting documentation because they did not believe they needed to
do so.

1
  The Alliance Agreement for Global Expressed Guaranteed is a written document outlining the terms and conditions
agreed upon between the Postal Service and the FedEx.
2
  Upon receipt of the electronic invoice from FedEx, the Postal Service will verify service. The Postal Service will
validate the FedEx bill by matching the item number scans, based on the Postal Service tracking number, against the
comparable data element in FedEx acceptance scans.
3
  Retail and processing employees must maintain a total of three scans per mailing for acceptance, processing, and
tendering to FedEx. These mailings did not have any of the required scans.
                                                           1
Global Express Guaranteed                                                                            FF-AR-11-016




According to the Alliance Agreement with FedEx, the Postal Service should request a
copy of the air waybill 4 image when GXG mailings submitted for payment do not match
Postal Service records. Management stated they did not request copies of the air
waybill images because they believed the FedEx tracking system provided sufficient
proof of acceptance. However, using the FedEx tracking system as proof of acceptance
does not provide independent validation of GXG mailings from customers. When
program management does not comply with agreed upon validation procedures
contained in the Alliance Agreement, there is an increased risk of paying FedEx for
mailings that do not originate with the Postal Service.

Further, as a result of this issue, we expanded our review to determine the number of
GXG mailings where Postal Service retail and network processing units missed one or
more of the required scans. We found                      GXG mailings (28 percent)
with postage and insurance totaling              were affected. 5 We discussed our
observations with GXG management who subsequently took corrective action by
including detailed steps for scanning GXG mailings in the GXG standard operating
procedures. Therefore, we are not making a recommendation regarding this situation.

Re-Certification and Accreditation of the GXG Database

Postal Service management did not ensure timely re-certification and accreditation
(C&A) of the GXG database. 6 The Postal Service completed its last C&A of the GXG
database in FY 2001. 7 In November 2008, management completed a business impact
assessment (BIA). 8 At that time, the GXG database was designated a non-critical,
non-sensitive system. However, even though management re-classified the database,
they were still required to complete the C&A of the GXG database (at least every
5 years). The C&A ensures that existing security controls and processes are still in
place and functioning correctly. The executive sponsors, as representatives of the vice
presidents of the functional business areas, are responsible for ensuring completion of
all security-related tasks, which includes re-certifying and accrediting the GXG
database. 9

Management believed the database, with its change in status, was immaterial and,
therefore, did not need C&A. As a result, without a C&A, the Postal Service cannot
ensure the GXG database is adequately protecting information resources from security
threats and vulnerabilities that could negatively affect the Postal Service brand.


4
  A shipping label used on GXG mailing envelopes.
5
  Revenue includes postage and insurance totaling                                              ).
6
  Certification establishes the extent to which information resources meet specified security requirements.
Accreditation is management’s analysis and approval of security controls as they relate to specified security
requirements and acceptable risk levels.
7
  GXG Security Certification Report, dated January 8, 2001.
8
  The BIA is completed during phase two of the C&A process and is a process for determining the sensitivity and
criticality levels of Postal Service information resources.
9
  Handbook AS 805a, Information Resource Certification and Accreditation Process, Section 2-6, and Chapter 3,
October 2009.


                                                         2
Global Express Guaranteed                                                     FF-AR-11-016




Recommendations

We recommend the vice president, Global Business:

1. Direct the executive director, Global Business, to validate Global Express
   Guaranteed (GXG) billings by requesting and maintaining the air waybill image from
   the FedEx Corporation when GXG mailings submitted for payment do not match
   Postal Service records.

We recommend the vice president, Global Business, in coordination with the manager,
Corporate Information Security:

2. Conduct a re-certification and accreditation of the GXG database in accordance with
   Postal Service policy.

Management’s Comments

Although management agreed with our finding associated with recertification and
accreditation of the GXG database and with both recommendations, they disagreed with
the basis for our audit and the specific presentation of the finding related to GXG
validation and scanning procedures.

Specifically, management disagreed with our audit objective and that this was a
self-initiated audit. Management stated that the audit was actually initiated by Postal
Service GXG Alliance Management/Corporate Finance to identify the percentage and
root cause of items being reshipped after their return for improper customs
documentation.

Further, management noted the finding was not that they did not properly validate
FedEx billings but rather that they did not always adhere to the Alliance Agreement
guidelines in reference to exception processing. They noted that payment is to be made
even if the postal scans are missing and the non-matched records would then be
subject to the outlined exception processing.

Management further stated that 89 percent of GXG mailings missing Postal Service
scans were Click-N-Ship which validates these mailings as originating with the Postal
Service. Management added that the remaining 11 percent of shipments (representing
$34,450) did have the potential for overpayment and were, therefore, at risk.

Finally, management disagreed there was an increased risk of overpayment to FedEx
for mailings that did not originate with the Postal Service because GXG mailings can
only originate from the Postal Service. GXG is not available in FedEx retail locations
and only the Postal Service can provide GXG to the FedEx induction site.




                                            3
Global Express Guaranteed                                                     FF-AR-11-016



Regarding recommendation 1, management agreed to adhere, effective immediately, to
the exception process as stipulated within the Alliance Agreement by requesting and
maintaining supporting documentation for all shipments devoid of Postal Service
acceptance validation. The target implementation date was September 8, 2011.

Regarding recommendation 2, management agreed to request Information Technology
to perform timely recertification and accreditation of the GXG database. The target
implementation date is September 30, 2011.

See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
planned and taken should resolve the issues identified in the report.

Management asserted that the audit was initiated by Postal Service Global Express
Guaranteed (GXG) Alliance Management and Corporate Finance. During our annual
audit planning, we met with management to determine whether there were any areas
they believed would benefit from an OIG review. At that time, management requested
assistance from OIG to identify the percentage and root cause of items being reshipped
after their return for improper customs documentation. This request was designed to
assist the Postal Service in reducing the number of refused mailings by FedEx. We
agreed to incorporate this requested audit into our fiscal year 2011 audit plan. However,
prior to our starting the fieldwork, GXG management proactively requested and received
additional data from FedEx, which included information on the status of refused
mailings. We decided not to address the requested objective because management
informed us this additional data resolved the questions they initially raised to the OIG.
As a result, we modified our audit objective to determine whether control procedures
over acceptance, processing, tendering, delivering, and oversight of GXG mailings were
in place and operating effectively. We communicated this revised objective to
management in our fieldwork announcement letter and during the formal entrance
conference.

Regarding management’s disagreement with the GXG validation and scanning
procedures finding and monetary impact, the GXG Alliance Agreement states the Postal
Service will pay the amount billed by FedEx in the event of missing Postal Service
scans. However, the agreement also states that the Postal Service will note an
exception and request FedEx to provide supporting documentation. The Postal Service
then uses that documentation to validate the FedEx billing. GXG management did not
request the documentation for mailings associated with the $314,000; therefore, the
OIG believes the entire amount represents payments that were not properly supported.

The OIG agrees that valid GXG mailings cannot originate outside of the Postal Service.
However, Postal Service Click-N-Ship data does not provide adequate support when



                                            4
Global Express Guaranteed                                              FF-AR-11-016



Postal Service employees have not completed all required scans. According to the
Alliance Agreement, the Postal Service should request a copy of supporting
documentation when GXG mailings submitted for payment do not match Postal Service
records.




                                        5
Global Express Guaranteed                                                                         FF-AR-11-016



                               Appendix A: Additional Information

Background

The Postal Service has an alliance with FedEx to transport and deliver all GXG mailings
tendered by the Postal Service. Monthly, FedEx generates and electronically transmits
air freight detail invoices to the Postal Service. The Postal Service acknowledges
receipt of electronic invoices and verifies services rendered. The verification process
involves removing duplicate air waybills, claims for lost or damaged mailings, and
claims for money-back guarantees. The verification process also assesses penalties to
FedEx, if applicable, and determines their share of revenue.

The Alliance Management Committee, which consists of six members — three from the
Postal Service and three from FedEx — resolves invoice disputes. Upon completion of
the verification process, the Postal Service submits invoices to the St. Louis, MO
Accounting Service Center for payment through electronic fund transfers.




Postal Service policy requires management to certify all information resources,
regardless of where they are located or whether or not they are controlled directly by the
Postal Service. 10 Management should make sure to complete C&A of non-sensitive and
non-critical information resources every 5 years. 11 The purpose for re-initiating the C&A
process is so management can ensure that existing security controls and processes for
the infrastructure component are still in place and functioning correctly and that they
address changes to the infrastructure component.

Objective, Scope, and Methodology

Our objective was to determine whether control procedures over acceptance,
processing, tendering, delivering, and oversight of GXG mailings were in place and
operating effectively.

To accomplish our objective, we audited the Postal Service’s FY 2010 GXG operations
at Postal Service Headquarters and at the following locations:

    Lehigh Valley and Pittsburgh, PA
    Huntington and Santa Ana, CA
    Baltimore, MD
    East Boston, MA

10
   Handbook AS-805, Information Security, Sections 8-4.2 and 8-4.3, May 2011 and March 2002, updated with Postal
Bulletin revisions through October 30, 2003.
11
   Handbook AS-805, Section 8-5.7.9.


                                                       6
Global Express Guaranteed                                                                          FF-AR-11-016




We judgmentally selected these sites based on the volume of reported mailings refused
by FedEx, the objective which was initially requested by GXG management, and the
proximity to OIG field offices. We compared Postal Service reports to the FedEx
tracking system and could not substantiate the concerns. Therefore, we focused our
audit efforts on management oversight and scanning procedures. We reviewed the
GXG Alliance Agreement 12 between the Postal Service and FedEx. In addition, we used
Postal Service manuals, policies, and procedures as criteria to evaluate controls over
GXG operations. Also, we conducted interviews and onsite visits with FedEx and Postal
Service International and Domestic Express Mail® employees to identify value-added
mailing practices and assess the effectiveness of the FedEx manifest invoicing system.
We interviewed and met with headquarters officials, managers, and employees at Post
Offices and processing and distribution centers (P&DCs). W e also observed GXG
mailing operations at the Dulles P&DC and FedEx Air, Ground, & Freight Service Ramp
Operations in Dulles, VA.

We conducted this performance audit from October 2010 through September 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on July 28, 2011, and included their
comments where appropriate.

We assessed the reliability of the GXG database by sampling, at random, 60 GXG
mailing transactions. For FY 2010, we compared the tracking table to the Postal
Service’s Product Tracking System to validate acceptance and processing. We
determined that the data was sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objectives of this
audit.




12
  The Postal Service began using FedEx to transport GXG mailings on July 1, 2004. On June 15, 2009, the Postal
Service renewed the Alliance Agreement for GXG through June 30, 2014.


                                                       7
Global Express Guaranteed                                                                             FF-AR-11-016




                                     Appendix B: Monetary Impact


                Finding                           Impact Category                          Amount
            GXG Validation
            and Scanning              Unsupported Questioned Cost 13
            Procedures




13
  A weaker claim and a subset of questioned costs. Claimed because of failure to follow policy or required
procedures but does not necessarily connote any real damage to Postal Service.


                                                          8
Global Express Guaranteed                                       FF-AR-11-016



                            Appendix C: Management’s Comments




                                            9
Global Express Guaranteed        FF-AR-11-016




                            10
Global Express Guaranteed        FF-AR-11-016




                            11
